           Federal Housing Finance Agency
               Office of Inspector General




   Reducing Risk and Preventing
  Fraud in the New Securitization
          Infrastructure




Evaluation Report  EVL-2013-010  August 22, 2013
FHFA issued the subject report on August 22, 2013. The Inspector General Act of 1978, as amended,
establishes offices of inspectors general to, among other things, “prevent and detect fraud and abuse”
in programs of federal departments and agencies. Inspector General Act of 1978, 5 U.S.C. App. 3 §
2(2)(B).


EVALUATION OBJECTIVE: The objective of this evaluation was to assess risks and fraud threats
in the securitization infrastructure under development and to address such risks by recommending
countermeasures into the emerging policies, procedures, internal controls, and organizational
structures as they are designed.


Because information in this report could be used to exploit vulnerabilities and circumvent
recommended countermeasures, it has not been released publicly.




         Federal Housing Finance Agency Office of Inspector General • EVL-2013-010 • August 22, 2013
                                                 2
